Record No. _ _

Jfn \!Cbe

~upreme

Q[ourt of tbe Wntteb ~tates

TAVEON NIXON, a/k/a Kodak,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, Taveon Nixon, requests leave to file the attached
Petition for a Writ of Certiorari to the United States Supreme Court for
the Fourth Circuit without prepayment of costs and to proceed in forma
pauperis pursuant to Rule 39. The United States Court of Appeals for
the Fourth Circuit appointed counsel to represent Petitioner. Petitioner
has remained incarcerated since the commencement of his case, and, on
information and belief, is indigent.
September 15, 2020
Respectfully Submitted,
Taveon Nixon
By:

Tho s
t
1 on, Esquire
App 1nted Counsel for TAVEON NIXON
Greene, Wilson & Crow P .A.
P.O. Box 1676
New Bern, NC 28563
252-634-9400
twilson@greenewilson.com

